                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF YSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A041 10068
                                                                                    11           Page 1 of 1



                  We received an allegation that proposal 1,' submitted by PI- 1* and 2 co-p1s3(collectively, the
          subjects), included material plagiarized fiom proposal 24submitted by another PI and several co-PIS.
           The subjects were either co-PIS or a consultant on proposal 2. Proposal 2 was significantly larger
          than proposal 1: wcopyfind found that 39%of proposal 1 also appeared in proposal 2; however, the
          duplicative text in proposal 2 constituted only 9% of the text in proposal 1.

                 We wrote to the subjects, and in response they explained in detail the origin of most of the
          duplicate passages. The material for which the subjects are unable to document their original
          authorship is de minimus in the context of their having been substantial contributors to the
          collaborative proposal. We conclude that there is no substance to the allegation of plagiarism;
          accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
